   July 10, 2006




Acquisition
Source Selection for the National
Polar-Orbiting Operational
Environmental Satellite System -
Conical Microwave Imager/Sounder
(D-2006-097)




             Department of Defense
            Office of Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

AFAC                  Air Force Acquisition Circular
AFFARS                Air Force Federal Acquisition Regulation Supplement
BATC                  Ball Aerospace and Technologies Corporation
BSS                   Boeing Satellite Systems
CMIS                  Conical Microwave Imager/Sounder
DoC                   Department of Commerce
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
IPO                   Integrated Program Office
NASA                  National Aeronautics and Space Administration
NPOESS                National Polar-Orbiting Operational Environmental Satellite
                         System
NSTC                  National Science and Technology Council
OIG                   Office of Inspector General
PRAG                  Performance Risk Assessment Group
SEIT                  Systems Engineering, Integration, and Testing
SMSC                  Space and Missile Systems Center
SSA                   Source Selection Authority
SSAC                  Source Selection Advisory Council
SSET                  Source Selection Evaluation Team
SSP                   Source Selection Plan
                Department of Defense Office of Inspector General
Report No. D-2006-097                                                       July 10, 2006
 (Project No. D2005-D000FE-0168.000)

       Source Selection for the National Polar-Orbiting Operational
          Environmental Satellite System - Conical Microwave
                              Imager/Sounder

                                 Executive Summary

Who Should Read This Report and Why? Acquisition and contracting personnel
within DoD and the military departments should read this report. It discusses the need
for oversight of the source selection process for contract awards.

Background. This audit is one in a series performed at the request of the Office of
Under Secretary of Defense for Acquisition, Technology, and Logistics. On February 11,
2005, the Under Secretary of Defense for Acquisition, Technology, and Logistics
referred eight Air Force contracts for DoD Office of Inspector General (OIG) to audit due
to concerns that the Principal Deputy Assistant Secretary of the Air Force, Acquisition
and Management may have used undue influence to award these contracts to Boeing
Corporation and four other contractors. One contract referred for audit awarded the
National Polar-Orbiting Operational Environmental Satellite System – Conical
Microwave Imager/Sounder. That contract is addressed in this report. Subsequently, the
DoD OIG initiated additional audits based on the same concerns.

Results. The Air Force did not award the National Polar-Orbiting Operational
Environmental Satellite System - Conical Microwave Imager/Sounder contract in
accordance with the Federal Acquisition Regulation. The Air Force Source Selection
Authority for the contract award:

   •   lacked impartiality with respect to the contract winner, Boeing Satellite Systems
       and

   •   manipulated complex proposal evaluation ratings to benefit Boeing Satellite
       System’s contract proposal and hinder Ball Aerospace and Technologies
       Corporation’s contract proposal.

In addition, source selection personnel did not adequately document the evaluation of the
offerors’ proposals and used undefined and inconsistently applied evaluation ratings in
the source selection reporting process. Also, source selection personnel chose
significantly more relevant contracts from Ball Aerospace and Technologies Corporation
than relevant contracts from Boeing Satellite Systems for the past performance evaluation
of the source selection process. As a result, the Air Force unfairly awarded the
$317 million Conical Microwave Imager/Sounder contract to Boeing Aerospace. We
recommend that the Air Force establish a source selection oversight process, require
support for source selection findings, and update past performance evaluation guidance.
See the Finding section of the report for detailed recommendations.
Management Comments and Audit Response. The Military Deputy, Office of the
Assistant Secretary of the Air Force (Acquisition) concurred with two of the three
recommendations. Comments received were partially responsive, but did not address the
need for a sufficient audit trail to support source selection actions. The Military Deputy
nonconcurred with the recommendation to update past performance evaluation guidance
to include methodology to address when there are significant disparities in past
performance experience between offerors. We agree that past performance evaluation
should be based on contractor past performance as a whole. However, the past
performance evaluation methodology needs to include the impact of past performance
strengths and weaknesses in proper proportion to the population of past performance
experiences reviewed. Therefore, we request that the Secretary of the Air Force,
Acquisition and Management comment on this report by August 10, 2006. See the
Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                              i

Background                                    1

Objective                                     2

Managers’ Internal Control Program            2

Finding
     CMIS Phase II Contract Award              4

Appendixes
     A. Scope and Methodology                 15
     B. CMIS Phase II Source Selection Plan   17
     C. Report Distribution                   19


Management Comments
     Department of the Air Force              21
Background
    In accordance with Presidential Decision Directive National Science and
    Technology Council (NSTC)-2, May 5, 1994, the National Polar-Orbiting
    Operational Satellite System (NPOESS) was established to converge DoD,
    Department of Commerce (DoC), and National Aeronautics and Space
    Administration (NASA) polar-orbiting environmental satellite programs into a
    single operational system. NPOESS would reduce acquisition and operational
    costs and duplication of efforts in meeting common requirements while satisfying
    the unique requirements of the civil and national security communities. To
    implement NSTC-2, the Integrated Program Office (IPO), consisting of personnel
    from DoD, DoC, and NASA, was created to manage, plan, develop, fabricate, and
    operate NPOESS. DoD was responsible for supporting the IPO in major system
    acquisitions necessary to support NPOESS.

    Conical Microwave Imager/Sounder. The Conical Microwave Imager/Sounder
    (CMIS) sensor is one of an array of sensors with which the NPOESS will be
    equipped. The sensors will collect and disseminate data on the Earth’s weather,
    atmosphere, oceans, land, and near space environment. The sensors also will be
    able to monitor the entire planet and provide data for long-range weather and
    climate forecasts in a more timely and accurate manner. The CMIS sensor will
    collect global microwave radiometry and sounding data to produce microwave
    imagery and other meteorological and oceanographic data for military and
    civilian use.




           Figure 1. NPOESS with CMIS and Other Sensors


                                       1
           CMIS Awards and Protest. The IPO implemented the CMIS acquisition
           strategy in two phases. Phase I, “Sensor Definition and Risk Reduction,”
           addressed CMIS sensor payload and algorithm development up to preliminary
           design review. On July 30, 1997, the Air Force awarded Phase I contracts to both
           Boeing Satellite Systems (BSS) and Ball Aerospace and Technologies
           Corporation (BATC). Phase II, “Detailed Design and Fabrication,” addressed
           continued sensor development up to critical design review and delivery of six
           CMIS sensor units. On July 30, 2001, the Air Force awarded the Phase II
           contract to BSS over BATC. On August 9, 2001, BATC contested the CMIS
           Phase II contract award and filed a complaint with the Government
           Accountability Office (GAO) Procurement Law Control Group stating that the
           Government significantly violated applicable regulations, thereby severely
           prejudicing BATC. On September 21, 2001, BATC abruptly withdrew its GAO
           protest of the CMIS award, citing business reasons. See the Appendix B for a
           detailed description of the CMIS Phase II source selection process.

           Darlene Druyun Case. On April 20, 2004, Darlene Druyun, Principal Deputy
           Assistant Secretary of the Air Force, Acquisition and Management entered a
           guilty plea in Federal court for conspiring with Boeing Corporation’s 1 (Boeing)
           chief financial officer to help Boeing win a multi-billion dollar airplane tanker
           leasing contract. Druyun admitted in a post-plea agreement with the Government
           that she gave Boeing preferential treatment on numerous other contracts as well.
           On February 11, 2005, the Acting Under Secretary of Defense for Acquisition,
           Technology, and Logistics referred eight Air Force contract awards made by
           Druyun, including the CMIS Phase II contract award for which Druyun was the
           Source Selection Authority (SSA), to the DoD OIG for audit.


Objective
           Our audit objective was to determine whether the National Polar-Orbiting
           Operational Environmental Satellite System - Conical Microwave Imager Sensor
           (NPOESS-CMIS) was procured in accordance with the Federal Acquisition
           Regulation (FAR). The scope of our audit was limited to source selection for the
           CMIS Phase II contract. See Appendix A for a discussion of the scope and
           methodology and prior coverage related to the objective.


Managers’ Internal Control Program
           DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
           DoD Instruction 5010.40, “Management Control Program Procedures,”
           August 28, 1996, require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls. We did
           not review the Air Force management control program because the audit focused
           on determining whether the CMIS contract was awarded in accordance with the
1
    Parent corporation of Boeing Satellite Systems.



                                                      2
FAR. We did, however, become aware of internal control weaknesses over the
source selection process. Recommendations 1., 2., and 3. should help to
strengthen those controls.




                                  3
           CMIS Phase II Contract Award
           The Air Force did not award the CMIS Phase II contract in accordance
           with the FAR. Specifically, the SSA for the CMIS Phase II contract
           award:

              •   lacked impartiality with respect to the contract award winner, BSS,
                  and

              •   manipulated complex proposal evaluation ratings to benefit BSS’
                  contract proposal and hinder BATC’s contract proposal.

           In addition, source selection personnel did not adequately document the
           evaluation of the offerors’ proposals and used undefined and
           inconsistently applied evaluation ratings in the source selection reporting
           process. Also, source selection personnel chose significantly more
           relevant contracts from BATC than relevant contracts from BSS for the
           past performance evaluation of the source selection process.

           These conditions occurred because the Air Force did not ensure the
           implementation of appropriate FAR and Air Force policies and procedures
           for: the impartial, fair, and equitable treatment of the contract offerors;
           sufficient documentation to support actions taken; and precise proposal
           evaluation reporting. Also, Air Force policy on past performance
           evaluation methodology does not address when there are significant
           disparities in past performance experience between offerors. As a result,
           the Air Force unfairly awarded the $317 million CMIS Phase II contract to
           BSS.


CMIS Phase II Source Selection Plan
    In accordance with FAR Part 15 and Air Force Federal Acquisition Regulation
    Supplement (AFFARS) Part 5315, the Air Force prepared and executed
    requirements set forth in the Source Selection Plan (SSP), “National Polar-
    Orbiting Operational Environmental Satellite System – Sensor Payload &
    Algorithm Development Down-Selection for the Conical Microwave
    Imager/Sounder,” January 2, 2001. The SSP listed the CMIS Phase II source
    selection organization and explained how each offeror’s proposal was to be
    evaluated. See Appendix B for detailed information on the CMIS Phase II source
    selection plan.


CMIS Source Selection Ratings
    The Air Force did not award the NPOESS-CMIS contract in accordance with the
    FAR. The CMIS Phase II SSA lacked impartiality with respect to the contract
    award winner, BSS, and manipulated the complex proposal evaluation ratings to
    benefit the BSS contract proposal and hinder the BATC contract proposal. In

                                         4
addition, source selection personnel did not adequately document the evaluation
of the offerors’ proposals and used undefined and inconsistently applied
evaluation ratings in the source selection reporting process. Also, source
selection personnel chose significantly more relevant contracts from BATC than
relevant contracts from BSS for the past performance evaluation of the source
selection process.

SSA Impartiality. FAR Part 3, “Improper Business Practices and Personal
Conflicts of Interest,” states that “government business shall be conducted in a
manner above reproach and with complete impartiality and with preferential
treatment for none. The general rule is to avoid strictly any conflict of interest or
even the appearance of a conflict of interest.” However, the SSA lacked
impartiality with respect to BSS in the CMIS Phase II source selection. In late
2000, the SSA’s daughter and future son-in-law were hired to work at Boeing. In
the United States District Court for the Eastern District of Virginia,
“Supplemental Statement of Facts,” for criminal case #04-150-A, the SSA
acknowledged that Boeing’s employment of her daughter and future son-in-law
was at the SSA’s request, and their employment influenced her decisions in
matters affecting Boeing. The SSA’s daughter and future son-in-law were still
employed by Boeing during the CMIS Phase II source selection process. FAR
Part 3 also states that the official conduct of Government personnel must be such
that they would have no reluctance to make a full public disclosure of their
actions. However, the contracting officer did not provide a required signed
Conflict of Interest statement and Nondisclosure Agreement for the SSA. In this
environment, the SSA could not be relied on to make an objective assessment of
the CMIS Phase II source selection.

Changes to Final Evaluation Ratings. The SSA manipulated the final proposal
evaluation ratings to benefit the BSS contract proposal and hinder the BATC
contract proposal. In late June 2001, the Source Selection Evaluation Team
(SSET) completed its final evaluation of the BATC and BSS proposals and
prepared the Proposal Analysis Report with the final evaluation matrix (Table 1).
The final evaluation matrix for both offerors showed that BATC was rated better
in the significantly more important Mission Capability factor, while BSS was
rated better in the less important Proposal Risk and Cost factors. Both BATC and
BSS were given “Significant Confidence” ratings in the significantly more
important Past Performance factor.




                                      5
                                                   Table 1. Final SSET Evaluation Matrix
                                                 (data obtained from Proposal Analysis Report)
                                                                  BATC (Ball)                                                        BSS (Boeing)


                                               Optimization




                                                                                                                Optimization
                                                                            Algorithm




                                                                                                                                             Algorithm
                                                                                                    Execution




                                                                                                                                                                         Execution
                                                                                                    Program




                                                                                                                                                                         Program
                                                 System




                                                                                                                  System
                                                              Design




                                                                                                                               Design
                                                              Sensor




                                                                                                                               Sensor
                                                                                            SEIT




                                                                                                                                                             SEIT
                      Subfactors

         Factors

     Past Performance
  High Confidence, Significant Confidence,                Significant Confidence                                               Significant Confidence
Confidence, Little Confidence, No Confidence

    Mission Capability
  Blue (Exceptional), Green (Acceptable),      Blue*           Blue       Green             Blue    Green       Green*         Green       Green*           Green         Green
   Yellow (Marginal), Red (Unacceptable)

         Proposal Risk
                                               Moderate       Moderate
     High, Moderate High, Moderate,                                      Moderate*          Low       Low          Low         Moderate     Low*           Moderate        Low
                                                High           High
           Low Moderate, Low

                                                    Proposed                  PC** $319.9M                           Proposed                            PC $316.6M
                 Cost                               $308.4M                                                          $309.1M
                                                                          Reasonable               Realism                                Reasonable                  Realism
*SSET Ratings chosen and tasked by SSA for SSAC review
**Probable Cost



                  On June 29, 2001, the SSET and Source Selection Advisory Council (SSAC)
                  briefed the SSA on the CMIS Phase II final proposal evaluation ratings
                  documented in the Proposal Analysis Report. At the briefing, the attendees
                  concluded that the BSS and BATC proposals were very close and that there was
                  no consensus winner for the CMIS source selection. The SSA tasked the SSAC
                  to address the basis of five specific SSET subfactor ratings (shaded ratings in
                  Table 1). On July 9, 2001, the SSAC responded in the SSAC Addendum to the
                  Proposal Analysis Report by concurring with the SSET basis on four of the five
                  subfactor ratings and non-concurring with one rating. The SSA reviewed the
                  SSAC response along with the Proposal Analysis Report and SSAC Addendum
                  and made changes to the proposal ratings for both BSS and BATC (Table 2). On
                  July 30, 2001, the SSA made the CMIS Phase II source selection and chose BSS
                  over BATC.




                                                                                        6
                 Table 2. SSA Actions on Selected Subfactor Ratings
(data obtained from SSAC Addendum to Proposal Analysis Report and Source Selection
                                 Decision Document)
                     Factor/            SSET            SSAC
   Offeror                                                          SSA Change
                    Subfactor        Conclusion      Conclusion
                  Proposal Risk/                                      Raised to
1 – BATC                           Moderate Risk       Concur
                    Algorithm                                       Moderate-High
                   MC*/System                                        Lowered to
2 – BATC                                Blue           Concur
                   Optimization                                         Green
                   MC/System
3 – BSS                                 Green          Concur       Raised to Blue
                   Optimization
                       MC/                                            Accepted
4 – BSS                                 Green       Raised to Blue
                    Algorithm                                          Change
                  Proposal Risk/
5 – BSS                               Low Risk         Concur         Accepted
                    Algorithm
*Mission Capability


    From our analysis of the SSA briefing notes, Proposal Analysis Report, SSAC
    Addendum to the Proposal Analysis Report, and Source Selection Decision
    Document, we identified the following examples of how the SSA manipulated the
    final proposal ratings for both BSS and BATC.

             SSAC Analysis of SSET Ratings. The SSA selectively accepted or
    rejected SSAC conclusions of specific SSET subfactor ratings to improve the BSS
    proposal or detrimentally affect the BATC proposal. The CMIS sensor is the
    most complex sensor on the NPOESS satellite. The CMIS SSET subfactor
    evaluation teams who reviewed the BATC and BSS proposals were headed by
    non-Government personnel who were members of the Federally Funded Research
    and Development Corporation. The members of the System Optimization and
    Algorithm subfactor teams were doctoral-degreed personnel with expertise in the
    space science field. The SSAC concurred with the SSET basis for four of the five
    subfactor ratings and non-concurred with one rating. However, in making the
    source selection decision, the SSA disregarded the advice of both the SSET and
    SSAC and changed three of the subfactor ratings, even though the SSAC
    concurred with the basis of the SSET ratings for these subfactors (Table 2,
    Rows 1-3). In contrast, the SSA accepted a SSAC finding to non-concur with the
    SSET and raise the BSS Algorithm subfactor rating (Table 2, Row 4). The
    common theme was that in these four situations, the BSS proposal was improved
    or the BATC proposal was weakened. On the fifth item, the SSA accepted the
    SSET and SSAC concurrence on the BSS Algorithm Proposal Risk subfactor
    rating of low risk (Table 2, Row 5). However, the SSA had stated in the June 29,
    2001 decision briefing that the BSS Science Algorithm proposal was a strength,
    calling into question why the SSA would task the SSAC to address this area in the
    first place.
           Other SSET Ratings. The SSA did not address the basis of an SSET
    subfactor rating for BSS with significant weaknesses that could have led to a
    detrimental ratings change for BSS. The SSET stated in the Proposal Analysis


                                        7
Report that BSS had two significant weaknesses in the Systems Engineering,
Integration, and Testing (SEIT) subfactor–one significant weakness was in an
area that BSS did not adequately explain and the other significant weakness was
in an area that BSS incompletely characterized because it did not seem to
understand the particular requirements of the SEIT subfactor. The SSET also
stated that BSS had a third, though not significant, weakness in SEIT. The SSET
gave BSS a “Moderate” Proposal Risk rating for SEIT. Yet, the SSA did not task
the SSAC to address the basis for the SSET’s “Moderate” rating instead of
possibly a “Moderate-High” rating in light of the significant weaknesses. In
contrast, the SSA tasked the SSAC to question the basis of the SSET’s rating for
BSS’ Science Algorithms subfactor with only two insignificant weaknesses
(Table 2, Row 5). At the SSA decision briefing, the SSA stated that BSS’
Science Algorithm subfactor was a strength.

        Past Performance Evaluation. The SSA did not address an SSET
concern about the disparity in number of contracts reviewed in the CMIS Phase II
Past Performance evaluation. The Proposal Analysis Report included a statement
that BATC had significantly more “highly relevant” contract experience, “leading
to more areas for the Government to find problems” with BATC’s past
performance. The SSA did not address this concern with either the SSET or
SSAC. In making the source selection decision, the SSA lowered BATC’s Past
Performance rating from “Significant Confidence” to “Confidence” primarily on
the basis of what the SSET called a slight ratings difference between BSS and
BATC in the Science Algorithm area of the Past Performance evaluation.

        Source Selection Plan Requirements. The SSA misinterpreted
requirements in the SSP that benefited the BSS proposal. The SSP stated that in
rating the offerors’ proposals, the Mission Capability Factor was to be
significantly more important than the Proposal Risk Factor. However, in making
the source selection decision, the SSA concluded that BSS had a better overall
sensor design than BATC because the advantage of BSS over BATC (Moderate
versus Moderate-High risk) in the sensor design Proposal Risk Factor offset the
advantage of BATC over BSS (blue versus green) in sensor design Mission
Capability Factor. This logic contradicts proposal evaluation instructions set
forth in the SSP.

The SSA decisions made regarding the SSET’s final proposal ratings appear to
favor BSS over BATC and call into question the SSA’s impartiality with respect
to the CMIS Phase II source selection process. Table 3 shows an evaluation
matrix after the SSA’s changes.




                                    8
                                     Table 3. Evaluation Matrix after SSA Changes
                                 (data obtained from Source Selection Decision Document)
                                                                   BATC (Ball)                                                     BSS (Boeing)




                                                Optimization




                                                                                                                Optimization
                                                                            Algorithm




                                                                                                                                            Algorithm
                                                                                                    Execution




                                                                                                                                                                     Execution
                                                                                                    Program




                                                                                                                                                                     Program
                                                  System




                                                                                                                  System
                                                                Design




                                                                                                                               Design
                                                                Sensor




                                                                                                                               Sensor
                                                                                            SEIT




                                                                                                                                                          SEIT
                       Subfactors

       Factors

     Past Performance
  High Confidence, Significant Confidence,                          Confidence                                            Significant Confidence
Confidence, Little Confidence, No Confidence

    Mission Capability
  Blue (Exceptional), Green (Acceptable),      Green            Blue      Green             Blue    Green        Blue          Green       Blue         Green        Green
   Yellow (Marginal), Red (Unacceptable)

         Proposal Risk
                                               Moderate        Moderate   Moderate
     High, Moderate-High, Moderate,                                                         Low       Low         Low          Moderate     Low         Moderate       Low
                                                High            High       High
           Low Moderate, Low

                                                    Proposed                       PC $319.9M                       Proposed                        PC $316.6M
                 Cost                               $308.4M                                                          $309.1M
                                                                          Reasonable               Realism                                Reasonable               Realism



                 Supporting Documentation. Source selection personnel did not adequately
                 document evaluation results in the source selection reporting process. FAR
                 Part 4, Subpart 4.801(b) states that, “documentation in the contract files shall be
                 sufficient to constitute a complete history of the transaction for the purpose of
                 providing a complete background as the basis for informed decisions at each step
                 in the acquisition process and supporting actions taken.” SSET and SSAC
                 personnel prepared the Proposal Analysis Report to document the results of the
                 evaluations and comparative analysis of offerors’ proposals. Although supporting
                 documentation was available in the CMIS Phase II contract files, we were unable
                 to trace the final proposal evaluation ratings in the Proposal Analysis Report back
                 to supporting documentation in the contract files because of the lack of a clear
                 audit trail. Also, the SSA documented the contract award selection of BSS in the
                 Source Selection Decision Document, but did not provide specific support for
                 why she changed three of the subfactor ratings–ratings that both the SSAC and
                 SSET agreed on.

                 Source Selection Reporting. Source selection personnel also used undefined
                 and inconsistently applied evaluation ratings in the source selection reporting
                 process. For example, the SSAC used an undefined color code rating to rate a
                 subfactor in the SSAC Addendum to the Proposal Analysis Report. As stated in
                 the SSP, the color codings for the subfactor evaluation ratings for the Past
                 Performance and Mission Capability factors were: “Blue,” “Green,” “Yellow,”
                 and “Red.” However, the SSAC gave BSS a “High Green” to rate a subfactor in
                 the SSAC Addendum to the Proposal Analysis Report. In reviewing lessons
                 learned from the CMIS source selection, the Air Force acknowledged that the use


                                                                                        9
           of shades of colors could cause problems in interpreting proposal conclusions. In
           another example, the SSET made an inconsistent statement in summarizing the
           BSS proposal in the Proposal Analysis Report. The SSET gave BSS “Green” or
           acceptable ratings for each of the System Optimization and Algorithm subfactors.
           However, in the Proposal Analysis Report summary, the SSET stated that BSS
           was rated “Blue” or exceptional for the same subfactors. 2

           Past Performance. Source selection personnel chose significantly more relevant
           contracts from BATC than relevant contracts from BSS for the past performance
           factor evaluation of the source selection process. The SSET Chairperson
           appointed the Performance Risk Assessment Group (PRAG) to evaluate relevant
           current and past performance to assess confidence in the ability of each offeror to
           meet the requirements of the source selection. In total, the PRAG chose 33
           BATC and BATC subcontractor contracts, compared to 13 BSS and BSS
           subcontractor contracts for the past performance evaluation (see Table 4).


         Table 4. Quantity of Contracts Chosen for Past Performance Evaluation
                    (BATC had seven subcontractors and BSS had five
                     subcontractors considered for the CMIS project)
         Offeror                     Prime               Sub-Contractor                   Total

          BATC                         13                        20                         33

           BSS                          8                         5                         13


           The Proposal Analysis Report included a statement that the significant disparity
           in past contract experience led “to more areas for the Government to find
           problems” with BATC’s past performance. Auditors were unable to determine
           the intent of the statement because of a lack of supporting documentation. In
           addition, SSET personnel interviewed could not recall specifics about the
           statement. While auditors saw no evidence that the significant disparity in past
           contract experience was prejudicial to BATC’s past performance evaluation
           ratings, such disparities could be prejudicial to contract offerors in other closely
           matched source selections. In making the CMIS source selection decision, the
           SSA downgraded BATC’s entire Past Performance evaluation rating from
           “Significant Confidence” to “Confidence” primarily on the basis of what the
           SSET called a slight ratings difference in the Science Algorithm area (see Table
           3). 3




2
    These two BSS subfactor ratings were also changed by the SSA from “Green” to “Blue” after the source
    selection briefing.
3
    The CMIS Past Performance evaluation covered six areas: the five Mission Capability subfactors
    (System Optimization, Sensor Design, Science Algorithm, SEIT, and Program Execution) and Cost
    Performance.



                                                    10
Air Force Implementation of Policies and Procedures
     The Air Force did not ensure the implementation of appropriate FAR and Air
     Force policies and procedures for the impartial, fair, and equitable treatment of
     contract offerors; sufficient documentation to support actions taken; and precise
     proposal evaluation reporting. In addition, Air Force policy on past performance
     evaluation for source selections does not provide a methodology to address when
     there are significant disparities in past performance experience between offerors.

     Treatment of Contract Offerors. The Air Force did not ensure the
     implementation of policies and procedures for the fair, impartial, and equitable
     treatment of contract offerors. FAR Part 1, Subpart 602-2, “Contracting Officer
     Responsibilities,” states that contracting officers are responsible for ensuring
     performance of all necessary actions for effective contracting and for
     safeguarding the interests of the United States in its contractual relationships. In
     order to perform these responsibilities, contracting officers should be allowed
     wide latitude to exercise business judgment and shall:

        •   ensure that all requirements of law, executive orders, regulations, and all
            other applicable procedures, including clearances and approvals, have
            been met before a contract shall be entered into;

        •   ensure that contractors receive impartial, fair, and equitable treatment; and

        •   request and consider the advice of specialists in audit, law, and other
            fields, as appropriate.

     However, the CMIS contracting officer did not invoke FAR Part 1 to investigate
     the following circumstances that could have provided the basis to call into
     question the SSA’s impartiality with respect to the CMIS Phase II source
     selection.

        •   The SSA did not complete a Conflict of Interest Statement or Non-
            Disclosure Agreement.

        •   The SSA changed specific evaluation ratings to benefit one offeror over
            the other.

        •   The position of the SSA’s immediate superior, Assistant Secretary of the
            Air Force for Acquisition and Management, was vacant during the final
            2 months of the source selection process, and thus the SSA was acting in
            that role.

     Training contracting officers to ensure familiarity with their responsibilities and
     authority will help them be alert to suspicious circumstances in source selection
     actions.

     Documentation of Supporting Actions. The Air Force did not ensure the
     implementation of policies and procedures for sufficient documentation to support
     actions taken by source selection personnel. Although there appeared to be


                                          11
   supporting documentation available in the CMIS Phase II contract files, we were
   unable to validate the final proposal evaluation ratings in the Proposal Analysis
   Report by tracing final evaluation data back to supporting documentation because
   of the lack of a clear audit trail. The lack of a clear audit trail calls into question
   the validity of information provided in the Proposal Analysis Report and used by
   the SSA to document the source selection decision for the CMIS Phase II contract
   award. Incorporating guidance into Air Force policy to require an audit trail that
   will support source selection findings will help to ensure a complete history of the
   source selection process.

   Evaluation Reporting. AFFARS 5315, Part 5315.304, Air Force Informational
   Guidance 5315.305, “Proposal Evaluation,” July 6, 2000, states that the Proposal
   Analysis Report narrative assessment of the offerors’ proposal evaluations must
   be precise. However, the CMIS Phase II Proposal Analysis Report and SSAC
   Addendum to the Proposal Analysis Report included undefined and inconsistently
   applied color ratings. These types of errors could lead to evaluation interpretation
   problems and mislead the SSA when making source selection decisions.
   Implementing an independent quality review of relevant source selection
   documents will help to minimize evaluation reporting errors.

   Past Performance Methodology. Air Force policy on past performance
   evaluation for source selections does not provide a methodology to address
   situations when there are significant disparities in past performance experience
   between offerors. In total, the PRAG chose 33 BATC and BATC subcontractor
   contracts, compared to 13 BSS and BSS subcontractor contracts for the CMIS
   Phase II past performance evaluation. The Proposal Analysis Report included a
   statement that the significant disparity led “to more areas for the Government to
   find problems” with BATC’s past performance. We did not identify Air Force
   procedures that take into account situations when a disparate number of contracts
   are chosen for past performance evaluations of offerors. However, in a source
   selection as close as the CMIS Phase II source selection, significant disparities in
   past performance experience can lead the SSA to prejudicially rate an offeror for
   past performance. Adding methodology to Air Force policy to address situations
   when there are any significant disparities between offerors will help to ensure a
   fair and balanced past performance evaluation in the source selection process.


Summary
   The Air Force did not award the CMIS Phase II contract in accordance with the
   FAR. The Air Force did not ensure implementation of appropriate FAR and Air
   Force policies and procedures for: the impartial, fair, and equitable treatment of
   contract offerors; sufficient documentation to support actions taken; and precise
   proposal evaluation reporting. In addition, Air Force policy on past performance
   evaluation for source selections does not provide a methodology to address
   situations when there are significant disparities in past performance experience
   between offerors. As a result, the Air Force unfairly awarded the $317 million
   CMIS Phase II contract to Boeing Satellite Systems.




                                         12
Recommendations, Management Comments, and Audit
  Response
    We recommend that the Assistant Secretary of the Air Force (Acquisition
    and Management):

    1. Establish a source selection oversight process that will ensure:

          a. Contracting officers’ familiarity with their authority and
    responsibilities set forth in FAR Part 1, Subpart 1.6.

    Management Comments. The Military Deputy, Office of the Assistant
    Secretary of the Air Force (Acquisition) concurred and stated that in response to
    previous audits and recommendations of the Defense Science Board Task Force,
    the Air Force has updated contract clearance procedures to ensure additional
    oversight and independent review of contract actions. This oversight will always
    be at least one level above the contracting officer to ensure that the procedures in
    FAR Part 1, Subpart 1.6, as well as all other relevant contracting policies are
    being followed. These procedures were updated in Air Force Acquisition
    Circular (AFAC) 2005-0810 on August 10, 2005.
    Audit Response. Management comments are responsive. AFAC 2005-0810,
    effective September 10, 2005, updated Air Force procedures.

         b. Independent qualitative review of relevant source selection
    documents.

    Management Comments. The Military Deputy, Office of the Assistant
    Secretary of the Air Force (Acquisition) concurred and stated that in addition to
    the clearance process changes addressed in response to Recommendation 1.a., the
    Air Force recently updated legal review responsibilities to ensure the participation
    of supporting legal offices to provide advice and coordination for source selection
    decisions, and to review key documents, including those involving source
    selection. This change to the legal review procedures was issued in AFAC 2006-
    0329 on March 29, 2006.
    Audit Response. Management comments are responsive. The implementation of
    the revised guidance began on May 1, 2006.
    2. Update Air Force policy to require an audit trail to support source
    selection findings.
    Management Comments. The Military Deputy, Office of the Assistant
    Secretary of the Air Force (Acquisition) concurred and stated that, as discussed in
    Recommendation 1.a., AFAC 2005-0810 incorporated several changes to the
    source selection process. The changes included a requirement for the source
    selection evaluation team (SSET) to provide a source selection recommendation
    to the source selection authority (SSA). Other changes included the retention of
    all relevant records supporting the SSET recommendation to ensure there is an
    audit trail of source selection evaluations after the information is presented in any
    form to the SSA.


                                         13
Audit Response. Management comments are partially responsive. AFAC 2005-
0810 added the retention of records requirement to AFFARS Mandatory
Procedures 5315.3. However, this requirement does not address the need for a
sufficient audit trail. We request that the Air Force add a statement to AFFARS
Mandatory Procedures 5315.3 requiring that an audit trail exist between source
selection conclusions and their supporting records.

3. Update past performance evaluation guidance to include methodology to
address when there are significant disparities in past performance
experience between offerors.

Management Comments. The Military Deputy, Office of the Assistant
Secretary of the Air Force (Acquisition) nonconcurred and stated that:

       In this case, the audit team found no such evidence, nor has any difficulty of this type
       been reported to SAF/AQC on other source selections. Regardless of the quantity of
       specific past performance experiences a contractor may have, the evaluation is based on
       contractor past performance as a whole, and not by comparing specific quantities of
       performance experiences for individual contractors.

Audit Response. Management comments are partially responsive. We agree that
the evaluation of source selections should be based upon contractor performance
as a whole. We also agree that, in this case, we found no evidence of prejudice in
the past performance evaluation based on the number of contract experiences
considered. However, in other source selections, significant disparities in past
performance experiences could lead the SSA to prejudicially rate an offeror for
past performance. For example, using the current methodology, offeror A could
be detrimentally affected in a source selection where offeror A was found to have
two significant weaknesses in 33 past contracts reviewed compared to offeror B,
who was found to have one significant weakness in 13 past contracts reviewed.
In an otherwise even source selection evaluation, the SSA could conclude that
offeror B was the better offeror because it had only one significant weakness
compared to two significant weaknesses for offeror A in past performance. Past
performance evaluation methodology needs to consider the impact of past
performance strengths and weaknesses in proper proportion to the population of
past performance experiences reviewed.

In addition, the Air Force statement that no difficulties with past performance
evaluations have been reported to SAF/AQC on other source selections provides
little assurance that the difficulties would be identified in the absence of an
independent source selection review process (the Air Force addressed procedures
to improve the review process in response to Recommendations 1.a. and 1.b.).
Thus, we request that the Air Force reconsider its position and provide additional
comments on the final report.




                                         14
Appendix A. Scope and Methodology
      We reviewed CMIS Phase I and Phase II source selection documentation as well
      as CMIS Phase II protest documentation contained in files located at the Air
      Force Space and Missile Systems Center (SMSC) in Los Angeles, California.
      Specifically, we reviewed and analyzed SSA changes made to the SSET and
      SSAC evaluation ratings of the prospective offerors, Boeing Satellite Systems and
      Ball Aerospace, and Technologies Corporation. Further, we interviewed
      available CMIS Phase II SSET and SSAC representatives located at the SMSC
      and IPO, as well as Defense Contract Management Agency representatives.

      We performed this audit from April 2005 through February 2006 in accordance
      with generally accepted government auditing standards. Our scope was limited in
      that we did not include tests of management controls because the Under Secretary
      of Defense requested that we specifically review the NPOESS-CMIS contract.

      Use of Computer-Processed Data. We did not use computer-processed data to
      perform this audit.

      Government Accountability Office High-Risk Area. The Government
      Accountability Office has identified several high-risk areas in DoD. This report
      provides coverage of the contract management high-risk area.


Prior Coverage
      During the last 5 years, the Government Accountability Office (GAO) and the
      Defense Contract Management Agency have issued two reports and one
      memorandum related to NPOESS. In addition, the Office of the Secretary of
      Defense has issued one report related to management oversight of the acquisition
      process. Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov.

GAO
      Report No. GAO-06-249T, “Polar-Orbiting Operational Environmental Satellites:
      Technical Problems, Cost Increases, and Schedule Delays Trigger Need for
      Difficult Trade-off Decisions,” November 16, 2005

      Report No. GAO-01-1054, “Polar-Orbiting Environmental Satellites –
      Information on Program Cost and Schedule Changes,” September 30, 2004

Office of the Secretary of Defense
      Defense Science Board Task Force Report, “Management Oversight in
      Acquisition Organizations,” March 2005



                                          15
Defense Contract Management Agency
     Anomaly Memorandum, “National Polar-Orbiting Operational Environmental
     Satellite System – Conical Microwave Imager/Sensor,” March 2005




                                     16
Appendix B. CMIS Phase II Source Selection
            Plan
   The CMIS Phase II source selection was conducted in accordance with the CMIS
   Source Selection Plan (SSP), “National Polar-Orbiting Operational
   Environmental Satellite System – Sensor Payload & Algorithm Development
   Down-Selection for the Conical Microwave Imager/Sounder,” on February 22,
   2001 and approved by the SSA. The source selection team used FAR Part 15 and
   AFFARS Part 5315 as guidance throughout the acquisition process.

   Organization. The CMIS Phase II source selection organization consisted of the
   following:
      •   SSA. Official designated to make the source selection decision and
          document the decision in the Source Selection Decision Document.

      •   Source Selection Advisory Council (SSAC). A group of senior
          Government personnel who provided counsel during the source selection
          process and prepared a comparative analysis of the SSET’s evaluation
          results in the Proposal Analysis Report.

      •   SSET. A group of Government and non-Government personnel who
          evaluated proposals and prepared the Proposal Analysis Report to report
          findings to the SSAC and the SSA. SSET personnel represented the
          various functional disciplines relevant to the acquisition.

      •   Non-Government Personnel. Non-Government advisory organizations
          that participated in the source selection. The expertise of personnel from
          these organizations – members of the Federally Funded Research and
          Development Corporation were required to support the evaluation of the
          various functional disciplines associated with the evaluation factors and
          evaluation concepts.
   Evaluation of Proposals. The SSET evaluated the offerors based on the
   following evaluation factors.

      •   Past Performance (Factor 1). Relevant current and past performance to
          consider the demonstrated record of performance of the offeror’s team in
          supplying products and services that meet users’ needs, including cost and
          schedule.

      •   Mission Capability (Factor 2). Offeror’s ability to satisfy the Statement of
          Objectives through a comprehensive and sound program approach.

      •   Proposal Risk (Factor 3). Risk associated with the offeror’s proposed
          approach in accomplishing the requirements of the SSP.




                                       17
   •   Cost (Factor 4). Realism of the compatibility of the proposed cost with
       the proposal scope and efforts, ground rules and assumptions, and
       schedule. Reasonableness of the offeror’s proposal.

Factor 1 was of equal importance to Factor 2, and Factor 3 was of equal
importance to Factor 4. Factors 1 and 2 were significantly more important than
Factors 3 and 4.

In addition, the SSET evaluated the following subfactors within Factors 1, 2,
and 3:

   •   System Optimization (Subfactor 1). Compatibility with the offeror’s
       Integrated Master Plan, Integrated Master Schedule, and the
       Government’s budget estimate profile, and the projected performance of
       the offeror’s system (sensor and algorithms) in meeting assigned
       Environmental Data Records.

   •   Sensor Design (Subfactor 2). Offeror’s ability to build an instrument that
       will meet the requirements described in its performance specification.

   •   Science Algorithm and Associated Research Grade Code Development
       (Science Algorithm) (Subfactor 3). Offeror’s compliance with the Sensor
       Requirements Document and derived EDR sensor inputs.

   •   System Engineering, Integration, and Test (SEIT) (Subfactor 4).
       Soundness of the offeror’s approach to SEIT.

   •   Program Execution (Subfactor 5). Offeror’s ability to identify and balance
       performance, cost, schedule, and risk mitigation efforts for the detailed
       design and fabrication phase.

The SSET Performance Risk Assessment Group (PRAG) evaluated offerors’ past
performance relevancy at the five subfactor levels, as well as cost performance for
the Past Performance Factor (Factor 1) evaluation. The SSET Mission Capability
and Proposal Risk Factor teams evaluated and rated the five subfactors separately
within the Mission Capability Factor (Factor 2), and assessed a Proposal Risk
Factor (Factor 3) rating that characterized the risk associated with the offeror’s
proposed approach in accomplishing the requirements of the SSP. The SSET
Cost Factor (Factor 4) evaluators assessed the offerors’ proposed cost based on
realism and reasonableness. Subfactors 1 and 2 were equal and most important.
Subfactors 3, 4, and 5 were of equal importance and were individually less
important than subfactors 1 and 2.




                                    18
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy
Assistant Secretary of the Army (Financial Management and Comptroller)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commander, Marine Corps Logistics Command

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                         19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        20
Department of the Air Force Comments




                     21
22
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of the Inspector General who contributed to the
report are listed below.

Paul J. Granetto
Patricia A. Marsh
Lorin T. Pfeil
Walter J. Gaich
Samuel J. Cooper
Ronald L. Smith
Yan Shen
Ralph W. Dickison
Leilani Melendez
Jonah E. Toler
